United States v. Garcia, 838 Fed.Appx. 901 (2021)

838 Fed.Appx. 901 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial decisions
issued on or after Jan. 1, 2007. See also
U.S.Ct. of App. 5th Cir. Rules 28.7 and 47.5.
United States Court of Appeals, Fifth Circuit.
UNITED STATES of America, Plaintiff—Appellee,
v.
Angel Mondragon GARCIA, Defendant—Appellant.
No. 20-40377
|
Summary Calendar
|
FILED March 8, 2021

John A. Reed, Assistant U.S. Attorney, Carmen Castillo
Mitchell, Assistant U.S. Attorney, U.S. Attorney's Office,
Southern District of Texas, Houston, TX, for PlaintiffAppellee
Marjorie A. Meyers, Federal Public Defender, Michael Lance
Herman, Assistant Federal Public Defender, Scott Andrew
Martin, Assistant Federal Public Defender, Federal Public
Defender's Office, Southern District of Texas, Houston, TX,
for Defendant-Appellant
Before Barksdale, Graves, and Oldham, Circuit Judges.
Opinion
Per Curiam: *
Angel Mondragon Garcia pleaded guilty to illegal reentry
8 U.S.C. §§ 1326(a)

and
(b)(2). He was sentenced to, inter alia, 37-months’
imprisonment. Garcia contends: the district court plainly
erred in treating his prior Texas conviction for aggravated
18 U.S.C. § 16 and,

thus, as an aggravated felony pursuant to

review is only for plain error. E.g.,
United States v.
Broussard, 669 F.3d 537, 546 (5th Cir. 2012). Under that
standard, Garcia must show a forfeited plain error (clear or
obvious error, rather than one subject to reasonable dispute)
that affected his substantial rights. Puckett v. United States,
556 U.S. 129, 135, 129 S.Ct. 1423, 173 L.Ed.2d 266 (2009).
If he makes that showing, we have discretion to correct the
reversible plain error, but generally should do so only if it
“seriously affect[s] the fairness, integrity or public reputation
Id.

Garcia contends his prior Texas conviction for aggravated

Attorneys and Law Firms

assault as a crime of violence under

As Garcia acknowledges, he did not preserve the aggravatedassault issue in district court. For issues not so preserved,

of judicial proceedings”.

Appeal from the United States District Court for the Southern
District of Texas, USDC No. 5:19-CR-2156-1

into the United States, in violation of

1101(a)(43)(F) and
§ 1326(b)(2); and the court's written
judgment imposing a $100 fine conflicts with its oral
pronouncements at Garcia's sentencing hearing.

8 U.S.C. §

assault—in violation of
Texas Penal Code § 22.02(a)—
did not constitute a crime of violence because the Texas
conviction included reckless conduct, which does not involve
“the use, attempted use, or threatened use of physical force”
element required by
§ 16. See
18 U.S.C. § 16(a).
Garcia concedes, however, his claim is foreclosed. See United
States v. Gracia-Cantu, 920 F.3d 252, 253–54 (5th Cir. 2019)
(holding

Texas Penal Code § 22.01(a)(1), which

§

22.02(a) incorporates, is a crime of violence);
United
States v. Reyes-Contreras, 910 F.3d 169, 183 (5th Cir. 2018)
(en banc) (rejecting any “directness-of-force” requirement for
a crime of violence). He presents the issue in order to preserve
it for possible further review.
The written-judgment claim was not required to be raised at
sentencing. See *902 United States v. Diggles, 957 F.3d 551,
559 (5th Cir. 2020) (en banc) (“[W]e do not review for plain
error when the defendant did not have an opportunity to object
in the trial court”); United States v. Bigelow, 462 F.3d 378,
381 (5th Cir. 2006). Garcia and the Government rightly agree
there is a conflict between the court's oral pronouncements
at sentencing and its written judgment, which imposes a
$100 fine, even though at sentencing the court stated no fine
was imposed. When the written judgment conflicts with the
oral pronouncement at sentencing, the oral pronouncement
controls. United States v. Illies, 805 F.3d 607, 610 (5th Cir.
2015).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Garcia, 838 Fed.Appx. 901 (2021)

AFFIRMED in part; REMANDED for the limited purpose of
the district court's correcting the written judgment to conform
to its oral pronouncement at sentencing.

All Citations
838 Fed.Appx. 901 (Mem)

Footnotes
*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this opinion should not be published and is
not precedent except under the limited circumstances set forth in 5th Circuit Rule 47.5.4.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

